HHS/OIG, Audit - "Follow-Up Audit of the Medicaid Drug Rebate Program in
Oregon," (A-09-07-00052)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Audit of the
Medicaid Drug Rebate Program in Oregon," (A-09-07-00052)
March 14, 2008
Complete
Text of Report is available in PDF format (859 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We determined whether the State agency had (1) implemented
the recommendations made in our previous audit of the Oregon drug rebate program
and (2) established controls over collecting rebates on single source drugs
administered by physicians.  The State agency did not implement all of the
recommendations made in our previous audit.  In addition, the State agency
established controls over collecting rebates on single source drugs administered
by physicians.  However, for the period January 2006 through May 2007, the State
agency billed using an incorrect crosswalk.
We recommended that the State agency implement policies,
procedures, and internal controls to (1) reconcile the ending balance of
uncollectible rebates to the receivable account and report drug rebates for the
supplemental program on Form CMS-64.9R (2) create a sufficiently detailed
subsidiary accounts receivable system to track drug rebate activity by National Drug Code for
all drug rebate balances (3) verify the accuracy of interest payments received,
and (4) ensure that the crosswalk is used for collecting rebates for single
source drugs administered by physicians and bill manufacturers for all drugs
that were not billed for the period January 2006 through May 2007.  The State
agency concurred with the findings.